LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

May 3, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 20-1375:

KRISTINA BOX, COMMISSIONER, INDIANA STATE DEPARTMENT OF
HEALTH, ET AL. V. PLANNED PARENTHOOD OF INDIANA AND
KENTUCKY, INC.

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amicus
Curiae Judicial Watch, Inc. referenced above contains 2,713 words, excluding the parts
of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 3rd day of May 2021.

